                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: 105080035                                                         11           Page 1 of 1


                  The National Science Foundation Office of Inspector General, Office of Investigations
           undertook a proactive review of foreign travel and participant support expenditures in various awards
           made under the U.S.-Egypt Joint Science and TechnologyFunds program. A preliminary review of
           financial records for one such award1revealed questionable charges requiring hrther investigation.

                  Queries to the institution2and coordinationwith the program officerestablished that travel by
          the principal investigator3and others to various domestic locations for conferences, and to foreign
          destinations other than Egypt, during a no-cost extension period had not been cleared in advance
          with the program officer and could not be sufficiently connected to the objectives of the award to
          justifl retroactive approval. The investigation also established lapses in documentation,
          miscellaneous charging errors, and violations of the institution's policy regarding travel expenses,
          particularly its ban on rental car optional insurance.

                  Although the institution differed with OIG and the program officer on the propriety of the
           questioned domestic and foreign travel and the need for prior approval, it ultimately agreed to return
           the questioned charges and associated indirect costs to NSF.~

                     Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
